<html>
<title> - TERRORIST GROUPS IN SYRIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       TERRORIST GROUPS IN SYRIA 

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2013

                               __________

                           Serial No. 113-95

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

85-643 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Brian Michael Jenkins, senior adviser to the president, RAND 
  Corporation....................................................     5
Mr. Phillip Smyth, Middle East research analyst, University of 
  Maryland.......................................................    17
Mr. Barak Barfi, research fellow, The New America Foundation.....    25
Mr. Andrew J. Tabler, senior fellow, The Washington Institute for 
  Near East Policy...............................................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Brian Michael Jenkins: Prepared statement....................     7
Mr. Phillip Smyth: Prepared statement............................    18
Mr. Barak Barfi: Prepared statement..............................    27
Mr. Andrew J. Tabler: Prepared statement.........................    33

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49


                       TERRORIST GROUPS IN SYRIA

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions and extraneous materials for the record subject to 
the length limitation and the rules. Ranking Member Sherman is 
momentarily delayed. He will be here and he will be recognized 
for his opening statement as soon as he arrives. I do want to 
thank everyone, especially the panelists, for waiting during 
the last series of votes. I appreciate your diligence and also 
appreciate you being here.
    The crisis in Syria is a complicated mess. The poster in 
front here and once again on the screen, outlines to some 
extent the situation. At the very top of the poster, in yellow, 
is the Kurdish intrusion into what is Syria. The red portions 
are where the opposition, the rebels, all the rebel groups, 
different groups in different areas, but the red is the 
opposition controlling certain areas of Syria. The green is 
controlled by Assad. The vast majority of the land that is in 
white, that is uninhabited areas of Syria.
    The butcher Assad has slaughtered countless innocent 
civilians and has used chemical weapons on his own people. 
Every day Syrians flee the country in thousands to escape the 
horror. Assad is supported by the Iranian regime and their Shia 
killers Hezbollah. Hezbollah is the main reason why Assad has 
remained in power. Without thousands of highly trained 
Hezbollah killers it is possible that the regime would have 
been toppled by now. The IRGC and Quds Force are actively 
propping up Assad to maintain Shia control of Syria and allow 
Iran to project its power across the region.
    Aside from Hezbollah and Assad's armed forces, there are 
irregular militias called Shabihas that are loyal death squads 
for the regime. On the other side you have the Sunni fighters 
who range from so-called moderates to hard core extremists with 
ties to al-Qaeda. The worst of the lot is the Islamic State of 
Iraq and Syria, ISIS, which is al-Qaeda. ISIS works closely 
with al-Qaeda in Iraq to create a safe haven from which they 
can conduct their reign of terror. ISIS numbers well into the 
thousands, and most of the foreign fighters who have come to 
Syria fight with ISIS. I will repeat that. The foreign fighters 
that come are those that fight with ISIS.
    It isn't just the numbers that are important, it is what 
they are fighting for and how effective they are. ISIS sits at 
the top of the pyramid and then you have Jabhat al-Nusra, or 
JN, which is another jihadist group that shares al-Qaeda's 
ideas and objectives. Neither of these groups, in my opinion, 
are moderates. Both fund their operations from Gulf country 
donations, kidnappings, protection rackets, muscling in on the 
oil trade and other illegal means. Then there is another major 
Sunni group is Ahrar al-Sham, which many consider to be the 
strongest and most effective fighting force in several key 
cities. They may not be exactly al-Qaeda, but they are not 
exactly good folks either.
    So the so-called moderates fight for the Supreme Military 
Command Council, or SMC. General Salim Idris is the leader of 
this group. If you recall, this is the same group that the 
State Department was saying that we should arm to topple Assad. 
These fighters were billed as moderates who would keep al-Qaeda 
from taking over, but over the last several months a large 
faction of the SMC has actually defected to the radical 
extremist. It is not even clear if the SMC actually has any 
control over its fighters on the ground. It has been said that 
these groups were never true secular nationalists but Islamics 
from varying degrees.
    With so-called moderates fleeing into the arms of al-Qaeda, 
it seems that conflict has become a war between radical al-
Qaeda affiliated extremists and a brutal dictator. It is hard 
for me to see a clear winner and one that the United States can 
support. We don't want the Iranians to dominate in Syria with 
their now puppet Assad, we also don't want al-Qaeda taking over 
the country and linking Syria with al-Qaeda presence in Iraq. 
Left with this impossible choice, it is hard to see how further 
U.S. involvement can change the situation for the better.
    The regional implications of this conflict are important to 
understand and that is why we are here today. It is a 
possibility that Assad could be removed and then the rebel 
forces commit civil war against each other to see who is going 
to control the country. That is yet to be determined. Massive 
refugee flows are destabilizing our allies in the region and 
threaten to overwhelm large portions of their countries. I was 
recently in Turkey, and on the Syrian border with Turkey 
visited a refugee camp with over 150,000 Syrians who had fled 
the war and now are in Turkey. Refugees are in numerous 
countries around the area.
    The fear of chemical weapons proliferation to terrorist 
groups is a possibility despite weapons inspectors trying to 
secure as many as they can. Radical foreign fighters who come 
to Syria to fight will eventually return home and may be 
motivated to launch attacks at the urging of al-Qaeda. We also 
know there are U.S. citizens who have traveled to Syria for 
jihad. We need to be on top of their travels and intentions so 
they don't come back and attack the United States. It is 
important for us to understand these groups that are active in 
Syria so we know not only who we are dealing with but what they 
plan to do and achieve in their objectives. I look forward to 
hearing from our witnesses.
    I now turn over to my ranking member, Mr. Sherman from 
California, for 5 minutes for his opening statement.
    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
hearings. The scale of violence in Syria is well known to all 
of us, 120,000 people have died. Iran and Hezbollah are 
providing money, men and munitions to the brutal Assad regime. 
Two explosions near the Iranian Embassy in Beirut appear to 
have killed 23 people including the Iranian cultural attache to 
Lebanon. A Sunni jihadist group said it was behind the attack, 
and this of course is not the first time that Sunni jihadists 
have carried out deadly attacks inside Hezbollah controlled 
areas in Lebanon. The bombing serves as an indicator of a major 
spillover from the Syrian conflict into Lebanon, and we don't 
have to be reminded what an ethnic and religious tinderbox 
Lebanon was from 1975 to 1990.
    There are no excellent options involving Syria. Only the 
weaker part of the opposition shares with us a dedication to 
democracy, human rights or even a pale imitation thereof. But 
as reprehensible as some of the Sunni jihadists are, it is the 
Assad/Hezbollah/Tehran axis which is a greater threat to the 
United States and our interests than even the worst elements, I 
would say even the al-Qaeda elements of the opposition, though 
trying to choose from between very bad actors is certainly not 
something we prefer to do.
    In March 2013 I joined with the ranking member of the full 
committee, Eliot Engel, and with the House Permanent Select 
Committee on Intelligence chairman, Mike Rogers, in introducing 
the Free Syria Act which would authorize and direct the 
President to provide appropriate assistance including limited 
lethal equipment to carefully vetted Syrian opposition members. 
Clearly, the number and organization and power of the good 
forces in Syria has declined vis-a-vis both the Assad regime 
and the Sunni jihadists, yet I still think that working with 
the reasonable elements of the opposition is the best of the 
bad choices available to us.
    We see Jabhat al-Nusra, the ISIS, the Islamic State of Iraq 
and the Levant, and the rapidly growing Ahrar al-Sham, or free 
men of the Levant, growing in power in Syria. We know that at 
least two of those groups have pledged their allegiance to al-
Qaeda central, or perhaps we should call it al-Qaeda the 
franchisor, and the moderate rebel group, the Free Syrian Army, 
has been losing fighters and capacities to the hard core 
extremists. If we have to reflect on how brutal those 
extremists are, we can see a video that apparently they posted 
on YouTube showing themselves killing truck drivers in Iraq 
simply because these gentlemen were Alawites and were unable to 
successfully pretend to be Sunnis.
    The al-Qaeda affiliated groups have brought bomb making and 
other war fighting capacities to the Syrian civil war. They 
have recruited young men into their ranks, and they are 
instilling extremist views. The Saudis and others of our 
friends in the Gulf are deeply frustrated of the 
administration's lack of ample lethal aid, even nonlethal aid 
to the Syrian rebels, but our friends in the Gulf are a little 
less concerned about dedication to human rights or even to 
peace between nations when they decide which groups in Syria to 
support.
    Tens of thousands of Hezbollah members fight along Assad, 
all with the support of an Iranian Government, and all with the 
Iraqi Government that we created allowing planes to go over its 
territory carrying IRGC to Damascus. I could go on, but I 
should yield back and I do.
    Mr. Poe. I thank the ranking member. Are there other 
members that wish to be recognized for opening statements? The 
chair will recognize the vice chair of this committee, Mr. 
Kinzinger, for 1 minute.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you to 
the witnesses who have come in today. The ongoing conflict in 
Syria has rapidly evolved into a historic holy war between 
Sunnis and Shiites. This has left us with an atrocity of well 
over 115,000 dead, and a conservative estimate of 2.24 million 
refugees and IDPs.
    I supported President Obama earlier this year in limited 
U.S. military strikes as a punishment for chemical weapons use, 
but in solving a larger crisis the simple fact is we waited too 
long. We waited too long to exert U.S. influence in the region, 
thus creating a power vacuum and leaving open the door for al-
Qaeda, Hezbollah, Iran and Russia to fill this void. All groups 
that I certainly do not want to exert more influence in the 
Middle East.
    I am not fully sure what the answer is and I look forward 
to hearing what the panel suggests. But what I do know is if 
the U.S. continues to sit on the sidelines and present 
ourselves as an unreliable partner in the Middle East, we will 
lose significant influence in the region and the world. I look 
forward to the testimonies of the witnesses, and I yield back.
    Mr. Poe. Thank you, gentlemen. I will introduce the 
witnesses at this time. We have several good witnesses for us 
today. Mr. Brian Michael Jenkins is a senior advisor to the 
president of the RAND Corporation, author of numerous books, 
reports and articles on terrorism related topics. He formerly 
served as chair of the political science department at RAND. 
Phillip Smyth is a Middle East analyst at the University of 
Maryland's Laboratory for Cultural Dynamics where he focuses on 
Lebanese, Hezbollah and other regional Iranian Shia proxies. He 
was formerly an American based research fellow at the GLORIA 
Center.
    Mr. Barfi is a research fellow at the New America 
Foundation where he specializes in Arab and Islamic affairs. 
Previously, Barak was a visiting fellow at the Brookings 
Institution. Mr. Andrew Tabler is a senior fellow in the 
program on Arab Politics at the Washington Institute, where he 
focuses on Syria and U.S. policy in the Levant. During 14 years 
of residence in the Middle East, Mr. Tabler served most 
recently as a consultant on U.S.-Syria relations for the 
International Crisis Group, and a fellow at the Institute of 
Current World Affairs.
    Without objection, all the witnesses' prepared statements 
will be made a part of the record. I ask that each witness keep 
your presentation to no more than 5 minutes. There is a clock 
in front of you somewhere. When you see the yellow light come 
on that tells you you have 1 minute, and the red means your 5 
minutes are up. I will start with Mr. Jenkins.

 STATEMENT OF MR. BRIAN MICHAEL JENKINS, SENIOR ADVISER TO THE 
                  PRESIDENT, RAND CORPORATION

    Mr. Jenkins. Chairman Poe, Ranking Member Sherman, members 
of the committee, thank you for inviting me to testify. Let me 
start with the assertion that other than as a scrap of color on 
a map, Syria has ceased to exist. For the foreseeable future, 
no government will be able to rule the entire country. With 
support from Russia, Iran, and Hezbollah, Syrian Government 
forces appear to have stalemated a fragmented rebel movement. 
Rebel forces do control large areas of the country where 
government forces have withdrawn, but even if Assad falls, they 
too will be unable to impose their authority throughout Syria. 
Moreover, as you pointed out in your opening statements, the 
growing role of jihadist elements has divided the rebel 
movement and discouraged Western governments from providing the 
rebels with significant military support.
    It is against this background that the committee has asked 
me to address the role of Sunni and Shia terrorism. On the 
Sunni side, Syria represents al-Qaeda's best chance of 
establishing a new base in the Middle East from which to 
continue its terrorist campaign against the West. Two groups 
are directly linked to al-Qaeda--the Islamic State of Iraq and 
the Levant, ISIL--or ISIS, using the term Sham instead of the 
Levant--and Jabhat al-Nusra. Through its ferocity on the 
battlefield and dramatic suicide bombings, al-Nusra has 
attracted financial support and recruits to become what many 
regard as the most effective rebel force. ISIS, or ISIL, is 
simply the latest incarnation of the al-Qaeda in Iraq that 
emerged after the American invasion.
    Since the American withdrawal, the group has continued its 
terrorist campaign in Iraq while expanding its area of 
operations to include Syria. I should point out here just 
briefly that Sham, the last word in the title, implies 
something much broader than modern-day Syria. It is something 
that encompasses Syria, Lebanon, Jordan, Palestine, and of 
course Israel. So this is a much broader assertion of a 
theater. The rebel forces have attracted between 6,000 and 
8,000 foreign fighters. Most of them come from Arab countries, 
but an estimated 500 or so come from Western countries.
    These numbers will increase as the fighting continues. 
Europe, especially, is worried about what may happen when these 
fighters return home, possibly to engage in terrorist 
activities. It is not an immediate problem, as the flow of 
recruits right now is toward Syria, not the other way. However, 
arriving volunteers could be recruited by al-Qaeda operatives 
to carry out terrorist operations in the West. We have to 
recall that Muhammad Atta originally came to fight in 
Afghanistan but was then recruited by al-Qaeda and turned 
around to lead the 9/11 operation. Insofar as we know, 
comparatively few of these foreign fighters have come from the 
United States. Some have, but the chatter on the social media 
certainly indicates aspirations for others to go.
    Hezbollah represents the Shia side of terrorism, although 
Hezbollah's forces in Syria are fighting a more conventional 
war, bolstering a regime that is worried about the loyalty of 
its Sunni troops. Hezbollah is also training the militias that 
will bear an increasing portion of the fighting. In my view, 
terrorism certainly will be a growing feature of the Syrian 
conflict. The rebels are able to take smaller towns, infiltrate 
larger cities, and carry out spectacular terrorist attacks. But 
as these enclaves are consolidated--as what we might refer to 
as the front lines become harder--terrorism will become the 
rebels' principal weapon.
    On the other side, the Syrian Government's approach to 
counterinsurgency is essentially a strategy of terror. It is 
marked by intensive aerial and artillery bombardment, razing 
entire neighborhoods and towns, deliberately targeting the 
civilian population in the rebel zones. This style of fighting 
serves the dual purpose of terrorizing supporters of the rebels 
while binding Assad's forces to the regime. Local militias are 
now probably Syria's best weapons of mass destruction. Backed 
by the conventional forces of the Syrian armed forces, they 
root out rebel fighters and they carry out ethnic cleansing.
    As national institutions are warned away by the continuing 
conflict, the militias are going to become the primary 
protectors of the regime's enclaves. This has implications for 
any future foreign military intervention. You mentioned the 
refugees. About a third of Syria's population has either fled 
the country or been displaced internally. According to U.N. 
estimates, by the end of 2014, more than half of Syria's 
population will be living as refugees, a situation conducive to 
future terrorism. So what began as a rebellion against the 
regime of Bashar al-Assad has become a sectarian war that has 
exacerbated the sectarian tensions in Iraq and Lebanon, as well 
as in Syria, and increases the likelihood of a wider regional 
conflict that will affect diaspora communities as well. One way 
or another, we will be dealing with the effluent of Syria's 
conflict for decades. Thank you.
    [The prepared statement of Mr. Jenkins follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. Thank you. Mr. Smyth, the chair recognizes you for 
5 minutes.

 STATEMENT OF MR. PHILLIP SMYTH, MIDDLE EAST RESEARCH ANALYST, 
                     UNIVERSITY OF MARYLAND

    Mr. Smyth. Chairman Poe and Ranking Minority Member 
Sherman, thank you for the opportunity to be able to speak to 
the subcommittee. As Syria continues to burn and the United 
States attempts to both assess its interests and protect our 
existing interests, there is a major player in its proxies 
which are often misunderstood and also receive less attention.
    In early March 2013, British Foreign Minister William Hague 
said and I quote, ``Syria today has become the top destination 
for jihadists.'' The jihadists he was referring to are Sunni 
Islamists fighting as part of a number of Syrian rebel groups. 
However, an often overlooked, growing, well organized and 
highly militarily capable jihadist element within Syria is not 
only pro-Assad, but it is also Shia Islamist in nature, in 
addition to being backed and run by Iran. Shia jihadis, their 
movements and the narratives they utilize are highly developed 
and form part of a larger Iranian regional strategy.
    Tehran's main regional proxies which believe in, promote, 
and project Iran's ``Islamic Revolutionary'' ideology are the 
main contributors of Shia fighters through Syria. The proxy 
groups sending combatants include Lebanese Hezbollah, Iraq's 
Asa'ib Ahl al-Haq, the Badr Organization, Kata'ib Hezbollah, 
and smaller Iranian backed splinters from Iraqi Shia radical 
leader, Muqtada al-Sadr. Announcing its existence in May, 
Kata'ib Sayyid al-Shuhada--this is another Iraq-based Iranian 
client organization--claims to have sent some 500 fighters to 
Syria, and they are quite brutal.
    Starting in mid-October, Asa'ib Ahl al-Haq publicly called 
for Iraqi Shia volunteers to join the organization's fight in 
Syria. For months prior there have also been reports of trained 
volunteer fighters who had joined Kata'ib Hezbollah and Asa'ib 
Ahl al-Haq and they were then trained in Iran or Lebanon in 
Hezbollah's training camps and were then flown to Syria. Some 
of the combatants have included the Shia from as far afield as 
Saudi Arabia, Cote d'Ivoire and even Afghanistan.
    These Shia elements have constituted a key element which 
has secured and provided a powerful kinetic force to keep the 
Assad regime in power. According to one Lebanese Hezbollah 
fighter who was interviewed by Time magazine, and this is a 
great quote, ``If we don't defend the Syrian regime it would 
fall within 2 hours.''
    Without the initial push by Iran and the utilization of its 
proxy network, Shia armed involvement via the deployment of 
volunteer fighters and trained assets would have likely 
constituted a very limited effect on the battlefield. It is 
also probable that without Iran's regional network of Shia 
Islamist fighters, the Assad regime would have been unable to 
mount any of its most recent offensives. Now all these factors 
are contributing to a hypersectarianization of the conflict. To 
quote an Asa'ib Ahl al-Haq singer--yes, they have propaganda 
singers. His name is Ali al-Delfi. ``We are not simply fighting 
for Bashar, we fight for Shiism.'' Thank you.
    [The prepared statement of Mr. Smyth follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. Mr. Barfi for 5 minutes please.

STATEMENT OF MR. BARAK BARFI, RESEARCH FELLOW, THE NEW AMERICA 
                           FOUNDATION

    Mr. Barfi. Mr. Chairman, members of the committee, thank 
you for inviting me to testify today about the various jihadist 
groups operating in Syria. Before I begin, I just want to give 
a quick shout out to my advisor/professor Richard Bulliet at 
Columbia who taught me all the nuances of Islam that Phillip 
has just reviewed with me.
    Syria has emerged as the number one destination of foreign 
jihadists. Pipelines from the Arabian Peninsula, Europe and 
North Africa funnel fighters to Syria. Some of these fighters 
have allied with homegrown extremists to create the Syrian al-
Qaeda affiliate known as the Islamic State in Iraq and Syria, 
or ISIS. Today, ISIS is the strongest brigade in Syria with a 
robust presence in many of country's provinces. However, 
although media attention is largely focused on ISIS, there are 
a number of other Salafist and jihadist brigades organizations 
that espouse an anti-modern and anti-Western message that are 
active in Syria.
    ISIS' roots date back to the January 2012 creation of 
Jabhat al-Nusra, or JN, when al-Qaeda's Iraqi affiliate, the 
Islamic State in Iraq, or ISI, sought to exploit the Syrian 
revolution to establish a regional branch there. On April 8th, 
2013, ISI's leader Abu Bakr al-Baghdadi announced that JN had 
been absorbed into ISI to become ISIS. JN's leader rebuffed the 
merger and received the support of al-Qaeda leader Ayman al-
Zawahiri. Nevertheless, within days many JN fighters defected 
to ISIS. ISIS also took over a number of JN's compounds. 
Moderate members deserted for the rebel-led Free Syrian Army or 
FSA. It appeared that JN was on the brink of disintegration.
    But shedding outliers who enflamed internal dissent lead to 
a more unified membership and a more cohesive ideology. The 
issue of takfirism, or declaring a Muslim an infidel, was 
bitterly contested within JN. The leadership was never 
comfortable with the extremists who advocated it and were 
pleased that they jumped ship to ISIS. In addition, most of the 
radicals who left were foreign fighters, allowing JN to present 
itself as authentically Syrian. Tensions between ISIS and JN 
are illustrated by the events in the city of Raqqa.
    After the April merger, JN's leader Abu Sa'd decided not to 
join ISIS. Instead, he abandoned JN's compound that is now 
under ISIS control with about 30 fighters. After keeping a low 
profile for several months as it reorganized, JN reemerged in 
September. In the interim, it absorbs units from the rebel-led 
Free Syrian Army who felt threatened by ISIS' consolidation of 
power. A number of units from the 11th Division such as Thuwar 
Raqqa and Muntasir Billah joined JN. But JN's comeback vexed 
ISIS, which responded by incarcerating the former leader Abu 
Sa'd. In other areas such as Aleppo, ISIS members have defected 
back to JN.
    Other factors have brought the intra-al-Qaeda conflict to 
the fore. On November 8th, al-Zawahiri announced the disbanding 
of ISIS, restricting al-Baghdadi's theater to Iraq and 
appointing JN as al-Qaeda's Syrian affiliate. Given ISIS' 
independence from al-Qaeda's Pakistan based leadership, and its 
autonomous financial resources, al-Baghdadi has no need to 
accept al-Zawahiri's diktats. He has previously rebuffed al-
Zawahiri's Syrian directives and is likely to do so again. As 
smaller brigades such as Asifa al-Shamal and Ghuraba al-Sham 
are squeezed out of the revolution by their larger 
counterparts, it is likely that rebel groups will consolidate 
into pro-ISIS and anti-ISIS groups. The anti-ISIS block will 
probably in the future be led by organizations such as JN. Such 
mergers portend a future battle where JN will play an important 
role as the bulwark against ISIS expansion.
    ISIS is able to act with impunity because of its 
predominance in the Syrian arena. It has a qualitative 
superiority over FSA units. Foreign jihadists brought with them 
skills learned in other conflicts. In addition, its ideological 
dedication to the revolution, often lacking in other FSA 
brigades, reflects a commitment that is admired by Syrians of 
all stripes. It is not only the organization's martial prowess 
that assures its popularity. In a war that has devastated state 
institutions, Syrians have few options for judicial 
arbitration. Because ISIS' leaders are mainly foreign they can 
portray themselves as neutral mediators.
    The organization also provides municipal and social 
services such as supplying grain to bakeries and establishing 
schools and summer camps. Local circumstances often dictate its 
relationship with the civilian community. In the areas where 
corrupt FSA units or inefficient administrators operated prior 
to its arrival, ISIS has been welcomed. But in regions where 
local officials have created a modicum of government, ISIS has 
received poor grades. ISIS seeks to create an Islamic state 
guided by the harshest interpretation of Islamic law that have 
little grounding in Islamic history.
    The organization has declared that its struggle will not 
end with the toppling of the Syrian regime. It plans to take 
the fight to other Arab countries in its quest to create a 
nebulous caliphate. ISIS cooperates with many FSA and Islamist 
brigades. They sponsor joint operations and divide the spoils 
between them. But the organization has also clashed with other 
rebel groups. When ISIS sought to consolidate its control over 
Raqqa, it dispatched a suicide bomber to destroy a compound of 
FSA unit Ahfad al-Rasul. In July, ISIS killed Kamal Hamami, a 
senior FSA leader in Ltakia. His death sparked FSA promises of 
a military riposte that never materialized. Indeed, various FSA 
units often boast it will take on ISIS only to back down later.
    In some provinces such as Raqqa, the FSA in no longer in a 
position to challenge it. In others such as Aleppo----
    [The prepared statement of Mr. Barfi follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. The gentleman's time has expired. We do have your 
entire statement. Thank you, Mr. Barfi. And Mr. Tabler, you 
have 5 minutes.

     STATEMENT OF MR. ANDREW J. TABLER, SENIOR FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Tabler. Thank you, Mr. Chairman, Ranking Member 
Sherman, and to my fellow panelists, thanks for this 
opportunity to testify before the subcommittee today. I have 
been asked to focus my testimony on U.S. national security 
interests in the region affected by the Syria conflict, what it 
means for Syria's neighbors, and regional implications. I will 
be as brief as I can on three very important questions.
    I have been working on Syria for about 13 years, including 
living in the country for about seven. To put the current 
situation in perspective, historically Syria's primary 
importance to the United States is based on its role as the 
keystone in the post-Ottoman Middle East state architecture. 
Many, if not most of you, remember the 15-year Lebanon war, 
where civil strife spawned civil war, terrorism, and the 
destruction of the U.S. Embassy and Marine barracks in Beirut, 
whose 241 killed marked the single largest day death toll for 
the Marine Corps since the battle of Iwo Jima.
    The Lebanon war was horrible, but strategically and 
metaphorically, and I don't mean to belittle it, Lebanon was 
just the small row house on the end of a block of states carved 
out of the Ottoman Empire by the Sykes-Picot Agreement. It was 
hard for the fighting and sectarianism to spread, most notably 
because the forces of the two neighboring row houses, Israel 
and a demographically different and more stable Syria under 
Bashar al-Assad's father, Hafez, that intervened to stop and 
contain the sectarian nature of the conflict. Syria, in 
comparison, is the big row house in the middle of the block.
    And while the United States does not have historic 
interests in Syria and spent many years on opposite sides 
during the Cold War and the War on Terrorism, almost all of 
Syria's neighbors are strategic U.S. allies--Israel, Jordan, 
Turkey, Iraq and Lebanon, which is not allied with the United 
States, but where Washington has considerable interests and 
challenges. What that effectively means is that what happens in 
Syria is not going to stay there, and it is difficult to 
contain.
    What happened in Lebanon during the '70s and '80s is also 
occurring in Syria. A similar conflict, but it is happening 
much faster and on different levels. Regional sectarian 
rivalries are competing in Syria's bloody fight with the 
vanguard forces coming from the laundry list of U.S. designated 
foreign terrorist organizations. Today Hezbollah, IRGC-Quds 
Force and other Iranian backed Shia militias fight alongside 
the Assad regime in the west. Salafists and jihadists, some of 
whom are al-Qaeda affiliates fight alongside and often against, 
these days at least, the Syrian Sunni dominated opposition. And 
in Kurdish areas, the Democratic Union Party, the PYD, an 
organization closely affiliated with the Kurdistan Workers 
Party otherwise known as the PKK, is now dominant.
    In a policy sense, the Syrian Arab Republic, which was a 
founding member of the 1979 list of State Sponsors of 
Terrorism, has devolved into three Syrias in which U.S. 
designated terrorist organizations are not only present, but 
ascendant. As a result, U.S. national security interests 
affected by the Syria conflict are growing in number and in 
scale. This is not going to go away any time soon and is going 
to be an issue for U.S. foreign policy makers and could also be 
an issue on the domestic scene depending on which way the 
Syrian conflict goes and the threats that come out of it.
    Those that I can identify, and I don't claim to speak 
absolutely the truth on this, but I have identified five 
general areas. One, first, concerns stability of key U.S. 
Middle East allies. Thus far, Syrian refugees and cross border 
fighting have been the primary security threats to Israel, 
Jordan, Turkey as well as Lebanon. With up to half the Syrian 
population on the move, or a third, estimates here depend, 
those who are taking shelter either inside of Syria or in 
neighboring countries, these areas become breeding grounds for 
terrorist groups that oppose not only their host countries, but 
the United States as well.
    Counter terrorism, both sides in the Syria conflict have 
moved to the extremes over the last year as my fellow panelists 
have outlined. There is now what I call a convergence of 
threats in Syria with direct Iranian influence via terrorist 
groups at an all-time high in the Levant as a whole, and al-
Qaeda affiliates also spreading among the opposition. It seems 
likely that Syria will devolve into a number of what are 
increasingly described as ungoverned spaces from which U.S. 
designated terrorist organizations could launch operations in 
Syria, but across the globe.
    There is also energy security as well. The nature of the 
Syrian conflict is increasingly sectarian fueled by both sides, 
and with the generally Shia forces supported by Iran and the 
Sunni forces supported by Saudi Arabia, Qatar and Turkey. As 
this conflict gets more sectarian, it eats down in the 
sectarian nature of Syrian society in the region. That would 
also have a knock-on effect concerning the price of oil. The 
price of oil is not set by source, ladies and gentlemen. It is 
a world commodity and it is set by overall risk in the world to 
the supplies.
    There is also a large step to non-proliferation concerning 
chemical weapons which have been addressed via the recent 
agreement between Russia and the United Nations and the United 
States on its destruction, and of course we have the 
humanitarian concerns and the health concerns with a major 
outbreak of polio occurring in the middle of the country. I 
will just conclude. There are a number of other recommendations 
in the written testimony.
    What I can say to you in brief is that while the Chemical 
Weapons Convention which is recently agreed seemed to have 
addressed that aspect of the threat emerging from Syria, on the 
other issues that I outlined it seems as if we are just kicking 
the can down the road. And as I think my fellow panelists have 
outlined, the threats emerging out of Syria will continue for 
the foreseeable future with no easy solutions for the United 
States or our allies. Thank you.
    [The prepared statement of Mr. Tabler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank all the panelists for their statements. We 
will begin the questions. I will recognize myself for 5 
minutes.
    Carve the scenario out hypothetically, if you can, and I 
know it is a hypothetical and it is based on your expertise. 
But down the road, as Mr. Tabler says, it is going to be 
eventually somebody is going to win and somebody is going to 
lose. You have got two terrorist groups on each side. The 
entire region is unstable because of what has taken place in 
Syria. So assume Assad wins and is able to run the rebels out. 
How does that play out? Assume he loses, the rebel groups take 
over. Is there civil war? Just kind of look into the future, if 
you can, for me. And I will ask that question to all four of 
you.
    Mr. Jenkins?
    Mr. Jenkins. It is a great question. I don't see one side 
prevailing in this conflict. Even if Assad were to fall and the 
fighting were to continue, Assad's growing power is not going 
to be able to, in the foreseeable future, reassert his 
authority throughout the country. So I think the premise has to 
be one of continuing conflict among a kaleidoscope of ethnic 
and sectarian groups in Syria that could go on for many, many 
years, and that is really the premise.
    In that kind of scenario, the United States, without 
significant investment, is really at the margin. So the 
question becomes not one of whether we can back Assad or back 
the rebels against him, but rather what can we do within that 
kind of environment to meet the objectives that Mr. Tabler has 
identified in the country? What can we do to best serve our 
interests in a continuing conflict? And to even raise the 
broader question, although it may sound cynical, I know we, 
naturally, as Americans want to get to postwar on this, but 
given the nature of the conflict, can we get there? And is it 
absolutely vital to U.S. interests that we try to end the 
fighting in Syria, or do we simply accept that it will continue 
and try to contain it, and, as I say, live with this thing as 
it is, as these jihadists and Hezbollah and others tear each 
other up inside of the country once known as Syria?
    Mr. Poe. Thank you. I am going to change the question 
because you are running out of time. Try to make your answers 
shorter if you can. Terrorist groups and their influence in 
neighboring countries, whether it is the Assad regime or the 
rebel groups, their effect on neighbors--Jordan, Lebanon, and 
even Israel.
    So Mr. Smyth, I will just ask you that question. How do you 
see that what has taken place what is the direction of those 
groups?
    Mr. Smyth. The direction in particular if you want to focus 
on the Iranian backed organizations, they are becoming an 
extremely professional force and they are very, very tough. We 
now have units that could directly attack Israeli interests, 
American interests, Saudi interests, and they are building 
their power up in Syria. This is kind of like their training 
ground in many ways. In fact, Lebanese Hezbollah was sending 
its reserve troops into Syria so that they could essentially 
train and gain combat skills. And where do you think they are 
going to send them afterwards? They are likely going to send 
them to South Lebanon. That is usually where they put more of 
their trained men. Often they send them other places to create 
new Iranian proxy organizations.
    In terms of these other groups, Salafi jihadi groups, Sunni 
organizations, they too are gaining valuable combat experience. 
And it is interesting kind of trying to outline this. Iran has 
its own Islamic revolutionary ideology and it is a global 
ideology. They really do believe in this kind of Messianic 
future. The same thing goes for these Sunni jihadists. And they 
are all trying to get to that end. You now have two radical 
forms of Islamism fighting each other and this doesn't mean 
necessarily that they are going to stop fighting Western 
interests or any of their other enemies in the area.
    Mr. Poe. All right. My time has expired. I will recognize 
the ranking member, Mr. Sherman from California, for 5 minutes.
    Mr. Sherman. Thank you, Judge. And for those who would take 
delight in the fact that Sunni extremists who hate America are 
killing Shiite extremists who hate America, we have to reflect 
on the fact that they are both learning how to kill. It used to 
be even a question whether the Alawites would really part to 
the Shiite movement. They are certainly not the Twelver Shiites 
that dominate Iran, and there are many different subgroups 
within the Sunni community. What we are seeing now is in effect 
a regionwide from Iran to Syria, a battle between Shiites and 
Sunnis.
    Have each group coalesced sufficiently so that the 
different flavors of Sunnis all cooperate notwithstanding 
theological differences, and Alawites and Twelver Shiites and 
other Shiite inspired but theologically different organizations 
coalesce, do we see a coming together of two sides?
    Mr. Barfi. So when we look at Alawis, Alawism starts in the 
10th century. It is basically an offshoot of the 11th Shia 
Imam, and they are what is known as Ghuluww, or they are very 
extreme in their dedication to Ahl is to the point where he 
becomes a god or a deity. They were outside the pale of Shiism 
for centuries. Both the Sunnis, the Sunnis considered them 
infidels. Into the 19th century they were seen as worse than 
the Jews and Christians. They couldn't give testimony in courts 
in Syria. The Shia had no relationship with them historically. 
It starts to change in the early 20th century under French and 
Turkish influence. That really doesn't go anywhere because they 
tried to impose the Jafari or Twelver school of law. Later some 
Alawi scholars go to Iran and Iraq and they bring back books 
and some scholars. That made a little bit more progress.
    But the Alawis, they don't pray in mosques. They are 
antinomian, which means they don't abide by any of the precepts 
of Islam--fasting during Ramadan, five prayers, abstaining from 
drinking alcohol. So there is----
    Mr. Sherman. Are you saying the Alawis drink alcohol and 
don't fast during Ramadan?
    Mr. Barfi. Yes.
    Mr. Sherman. And don't do all of the various things that 
some of us associate with Islam, and yet there seems to be a 
very solid bond. One of the other witnesses talks about how 
someone says I am not dying for Assad, I am dying for Shia. 
Yes, and I am sure that was an Alawite who is now ready to die 
for Shiitism. Have the Alawites and the Twelver and other 
Shiites come together? Mr. Smyth?
    Mr. Smyth. Well, first of all, that singer is actually an 
Iraqi Shia. He sings for Asa'ib Ahl Al-Haq. So that is a 
special group that the Alliance created. However, you are 
hitting on something very, very important. Iran is trying to 
coalesce Shia as a whole, especially Twelver Shia, behind the 
Iranian mantle. We are your protectors. This is the message----
    Mr. Sherman. Yes, they protect Twelver Shiites, they now 
seem to be protecting a group that generations ago they might 
not have accepted as even being Islam. But I do want to move on 
to another question. Who is financing the Sunni extremists in 
Syria? Does that money come from well connected people in Saudi 
Arabia, and do the Saudis happen to know that al-Qaeda likes 
blowing up things associated with the royal family?
    Mr. Jenkins?
    Mr. Jenkins. For the groups that are not the hard core al-
Qaeda groups that we have identified, certainly Saudi Arabia, 
Qatar, and the other Gulf monarchies are providing support to 
those groups. For those that have been identified as al-Qaeda-
linked, it appears to be that their funding is coming from 
private donations primarily in the Gulf monarchies.
    Mr. Sherman. And these private citizens, they are not the 
salt of the earth. They are very rich individuals who are well 
connected and allowed to do this?
    Mr. Jenkins. They are wealthy individuals, and there is a 
curious relationship in which a number of the rebel groups in a 
sense emerged during the rebellion and declared themselves on 
social media in order to seek foreign patrons. A little bit 
like football teams in a sense except you create the team first 
and you look for a wealthy backer, and then you brag about your 
numbers and your exploits in order to keep that flow of support 
coming. There is a lot of that taking place, and it involves 
extremely wealthy individuals.
    Mr. Sherman. So there are people in Syria who would want to 
kill us who are financed by well connected folks in the Gulf, 
and I yield back.
    Mr. Poe. Sherman yields back. The chair recognizes the vice 
chair, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman, and again thank you 
all for being here. As I mentioned in my opening statement, 
there is no really good answer here. And I think it was well 
said that when the chairman asked to game out both options, 
rebels win or Assad wins, what does it look like, and the 
answer is, well, there is always going to be lawlessness in 
Syria. This is in essence Afghanistan pre-9/11 now. And so I 
think it is difficult.
    But with that said, I want to pose to each of you the 
question of--again, I have been critical of the administration 
in saying we should have been out there more. We should have 
been engaged early, when this was a handleable situation. But 
we are where we are today, and unfortunately I haven't found 
the time machine yet. If I do you will know about it because I 
will go back and maybe we will never even talk about it then.
    But I will start with you, Mr. Tabler. If you want to just 
talk about, briefly, what is the U.S.'s option here and how 
should we be more involved in order to see an outcome? And 
again, whether it is Assad stays or Assad goes, how can we have 
a more peaceful outcome with U.S. involvement? I want to hear 
your thoughts on this.
    Mr. Tabler. A very good question. There are various 
methods. We have so many policy objectives running at the same 
time in Syria now it would very hard to achieve them all. Since 
the summer of 2011, August 2011 to be specific, the position of 
the United States is that Assad should step aside and lead to a 
transitional governing body which is outlined in the Geneva 
Accord of June 2012.
    Mr. Kinzinger. I think it is safe to say too, that was 
before we had an intense amount of extremist groups.
    Mr. Tabler. That is right. And so what has happened over 
time is that the ability to pursue those ends via state means 
has gone down. It was one of the downsides of a hands-off, lead 
from behind policy, as has been described, or the light 
footprint. There are several definitions for this and I am not 
claiming to know which one it is. So what has happened over 
time is that as the conflict has morphed and grown in scale and 
the state has been destroyed, and I think Mr. Jenkins outlined 
that and the other panelists as well, the question is, how do 
you then confront this convergence of threats that are coming 
out of Syria, both on the Iranian side and on the overall Sunni 
side and the extremist nature of the fight?
    There are two primary areas. One is through direct 
intervention, and that was most recently debated concerning the 
Assad regime's use, according to U.S. intelligence estimates, 
of sarin gas inside of Syria. The President did not go down 
that road, and that would have been a limited strike. Those 
kind of options are still on the table, and the White House 
continues to say that they are on the table. I don't know 
anybody that really sees how that might play out anytime soon, 
but we simply don't know.
    The other way to arrest this, in the case of the CW 
incident it was concerning the regime, going forward you could 
launch ground strikes or other kinds of direct strikes on 
various terrorist groups. It is possible. Usually not done 
without the permission of the state itself, and I don't think 
the Assad regime would appreciate us bombing their associated 
forces. They might prefer if we bombed the rebels.
    Then there is indirect intervention. And indirect 
intervention involves essentially like in Iraq, the Sahwa. It 
involves working with politically and militarily with groups on 
the ground to peel them away from the extremists. It is a much 
more slower, much more intelligent and sometimes precise way of 
defeating terrorists. The problem with that is it is very 
difficult to have a hands-off, lead from behind light footprint 
policy and to do that covertly.
    Mr. Kinzinger. And I think just to tag on, it is basically 
the U.S. has to get more involved or the U.S. has to accept the 
chaos that is going to follow.
    Mr. Tabler. Right. It would be hard to see how the 
situation in Syria gets better toward our interest without more 
American involvement. The question is what is the degree of 
that involvement? And that is where, until now it is still 
hotly debated. But what we can definitely say is that what we 
are doing until now is not working in terms of pursuing our 
interests, whether they are getting Assad to step aside or to 
undermine extremism in the region or a lot of other issues that 
we pursue in the region as a whole. So the question is what to 
do next.
    Mr. Kinzinger. I don't think anybody really knows what our 
policy is right now.
    Mr. Tabler. There is extreme confusion even among those of 
us that have followed this for a long time and even those that 
have contact with the administration about how the 
administration would pursue and achieve its conflicting goals. 
That is true.
    Mr. Kinzinger. And there is a lot of confusion among our 
allies as well, which is just as disheartening.
    Mr. Tabler. And anger.
    Mr. Kinzinger. Yes. With that, Mr. Chairman, I will yield 
back. Thank you. Right on time too.
    Mr. Poe. Thank the gentleman for watching the clock. The 
chair recognizes the other gentleman from Illinois, Mr. 
Schneider.
    Mr. Schneider. Thank you, Mr. Chairman, and thank you for 
calling this hearing. Mr. Barfi, I will start with you. Do you 
have a sense of how many organizations or groups are inside 
Syria fighting either on the side of the regime or against the 
regime? Ballpark number.
    Mr. Barfi. There is hundreds of units and brigades. Some of 
them such as Liwa al-Tawhid is a very big brigade composed of 
different units numbering in the thousands. They are based in a 
province such as Aleppo. Then you have a Salafist brigade like 
Ahrar al-Sham, they are in several provinces and we are talking 
10,000, 15,000, 20,000 fighters. Very strong. Then you have 
smaller groups like Amr ibn al-As which has a couple hundred 
fighters. But what is happening is it is a Pac-Man approach. 
Those larger brigades are slowly eating up the smaller 
brigades.
    Mr. Schneider. So this summer I read a report that there 
was as many as 1,200 different groups fighting inside Syria. 
Has that number decreased at this point, expanded or stayed 
fairly constant?
    Mr. Barfi. You would think that there is going to be a 
decrease as you have mergers and integrations. However, you are 
also seeing the emergence of new groups like Katibat al Nur in 
Aleppo. It is created by intellectuals and financed by 
businessmen because they thought that the FSA was giving the 
revolution a bad name.
    Mr. Schneider. Is a sense, I heard someone else use this 
context. The fighters coming in from the outside this gentleman 
described as fierce, and they are to fight to the death and 
even continue fighting after any negotiated agreement that 
might be possible, whereas, I would imagine businessmen coming 
together are not going to have the same fierceness of fight 
that some of these extremist groups have. Is that a fair 
characterization or am I jumping to a conclusion?
    Mr. Barfi. Well, I am sorry. Maybe I wasn't so clear. The 
businessmen are funding the brigade. But what you see is the 
people that come from abroad they are much more ideological in 
the reasons that they fight for. Some of these other units, 
they were created by criminal gangs. They were just bored and 
had nothing to do. The revolution came, hey, let us get 
together and make our criminal gang a rebel brigade and we can 
show that we are defending society and then steal cars under 
that banner instead.
    Mr. Schneider. As I look at Syria, and other people have 
described this, that any military victory for either side would 
be a catastrophe for Syria. One side overtaking the other and 
the subsequent massacres and things you might expect. With all 
these groups fighting and fighting each other with the Pac-Man 
strategy taking, do any of you all, and I will leave this up to 
the entire panel, does anyone think there is a prospect for a 
political resolution to the civil war?
    Mr. Jenkins. I certainly don't. I think the increasingly 
given nature of the tactics on both sides has now turned this 
into an existential contest for all concerned. That is, among 
the participants in the conflict none of them can clearly see a 
way in which they would survive under a regime that was 
dominated by another. And there is just an accumulation of too 
much bloodshed and too many calls for revenge to bring them 
together. I don't think a political solution is on. That is my 
view.
    Mr. Schneider. Mr. Tabler, I saw you are looking to answer.
    Mr. Tabler. A political solution to put Syria, the Syrian 
Arab Republic as it is officially known, back together in the 
foreseeable future, I think it would be very difficult to 
achieve. The administration is determined to start that process 
in talks in Geneva. I think those are now going to take place 
in January. There was a rumor that they might take place on 
December 12th. It would be very difficult to achieve those 
objectives. What I think we will have for the foreseeable 
future is, well, we will have a du jour Syria on a map, which 
is the one that is in front of us here, and in a de facto sense 
it will be divided into those three general areas that I 
outlined in my presentation. The problem is that the lines of 
control, the contours of control will not be clear. It will be 
more like a mosaic.
    The other major problem is, especially in the opposition 
groups that in the face of such bloodshed we expected their 
elites to congeal, to come together more under a national 
banner. For a variety of reasons not just foreign sponsorship 
but also some, historically from my own work some historical 
proclivities within Syria that occur when people come out of an 
authoritarian system like that it gives way to grandiosity 
among leaders. It is not uncommon among politicians of course, 
but only if in the end--yes, present company excepted--but only 
in the end if it leads to the destruction of a nation. And I 
think what we are going to have to deal with is a divided Syria 
for the foreseeable future.
    Mr. Schneider. I am sorry. I see I am out of time. If you 
could subsequently maybe touch on the fact with that as a 
statement, as a policy guidance, should the United States lean 
in and try to affect what is happening on the ground in Syria 
or should we stand back and try to contain everything within 
Syria? And I will yield.
    Mr. Tabler. Would you like me, I can answer that?
    Mr. Poe. Very quickly.
    Mr. Tabler. Sure. I think that containing it within Syria 
is not working. We have to deal with the disease itself. We 
have to just decide whether that involves the de facto 
partition of the country and how we deal with it. And then I 
think that will make it easier to deal with the different 
threats that I outlined. Trying to put the two sides back 
together at this point and have kind of a viable solution seems 
at the moment a pipe dream.
    Mr. Poe. Thank you. The gentleman yields back. The chair 
recognizes the gentleman from California, Colonel Cook.
    Mr. Cook. Thank you, Mr. Chair. I want to go back to the 
issue of chemical weapons. And obviously there is still a 
number of them in the country and everything, and the danger 
posed by falling into one of the, I don't know how many groups 
you have listed. I lost track. I didn't update my scorecard. 
But the scenarios there are just intriguing and horrific 
because they would go to any means whatsoever in their 
employment of it, do you have any comment on the possibility 
that that could be a military target of not just the sarin gas, 
but even more of the VX agents?
    Mr. Jenkins. The chemical weapons are a potential target 
for all of the parties concerned simply because they are a 
prize that will give any of the units leverage and make them 
more important players than they are. In other words, when you 
get your hands on them, you are more important. But also, 
interestingly, Assad's agreement to get rid of the chemical 
weapons in a certain sense is a strategy that helps the Assad 
regime survive, because it is a major logistics enterprise to 
both protect and move those weapons and to ultimately dismantle 
or disarm them. Doing that in the midst of a conflict is very, 
very difficult, and so there is going to be extreme pressure on 
the rebel forces to not interfere with the disarmament process. 
In other words, it is a way in which we are obliged to accept 
the legitimacy of the Assad regime and the primacy of it and to 
lean on the rebels to allow the disarmament process to take 
place, because if the conflict continues at its current 
intensity, it is very, very difficult to get those weapons out 
of there.
    Mr. Cook. Just to continue on that very quickly. You are 
talking about some extremist groups, obviously they kill 
people, take the hearts out and organs, and eat them, and 
obviously publicize that which, I think, was in the spring of 
this year--very, very shocking videos--that the ends achieve 
the means. And sooner or later they are going to look at that 
as a weapon of opportunity and that is why I mentioned that. 
But I don't want to run out of time. The Chechen rebels and any 
connections to the groups there, would this explain partly the 
Russian role in there other than its traditional support of the 
Assad regime or the fear of training Sunni extremists that we 
go back to Chechnya and blow up parts of Russia?
    Mr. Barfi. Not at all. Putin sees this as a cold war. It is 
just a game in the cold war. He doesn't want to let the United 
States have anymore assets in the region. Some people think 
that it is because of the naval base at Tartus. He doesn't need 
that naval base. He can't bring frigates in there. He can't 
have long stays of the sailors in there. This is just a cold 
war mentality. He does not want the United States to win.
    Mr. Cook. So you are saying he is not worried about the 
Chechen rebels and perhaps this ecumenical tie to the ones in 
this--I had kind of gotten a different impression when I was in 
Russia that what was going on in Chechnya and North and South 
Ossetia and everything else, the tremendous fear, almost a 
purge of any of the extremists, and they would go to any means, 
including a former terrorist leader that is now in charge of 
Chechnya.
    Mr. Barfi. If he felt like that then he would support the 
rebels to try to end the war. Because the rebels, the Chechens 
of Jaish al-Muhajirin wal-Ansar are part of the radical 
opposition that came about just in the last 2 years. Early on 
you had more nationalist moderate means.
    Mr. Cook. Absolutely. Okay, thank you. I yield.
    Mr. Poe. The gentleman yields back his time. I want to 
thank all of our panelists for being here.
    Did you have another question?
    Mr. Sherman. Only if you will indulge me.
    Mr. Poe. I will recognize the ranking member.
    Mr. Sherman. We have seen Assad win some victories on the 
ground. Are you folks pretty convinced that Assad isn't going 
to win this thing? Mr. Smyth?
    Mr. Smyth. Well, these victories that you are actually 
watching, the recent ones, these are due to the Shia militias 
and the Iranian involvement.
    Mr. Sherman. Well, that is one way to win.
    Mr. Smyth. But going back to will he win, we keep 
continuing this paradigm that one side is going to win over the 
other. And Syria is a multi-polar conflict. I am actually 
using----
    Mr. Sherman. But the Assad family has been able to impose 
its will on all of Syria for a long time and they are making a 
little progress toward returning to that. Are you confident 
they can't put this Humpty Dumpty back together again?
    Mr. Smyth. Frankly, I don't think that they can. A lot of 
these advancements that they have made, they haven't been able 
to hold on to certain large tracts of territory.
    Mr. Sherman. Does anybody on the panel have a different 
view? Anybody betting on Assad? Okay. I feel like a croupier.
    Lebanon is an analogy here, but Lebanon went through a 
violent phase of its kaleidoscope. On a less violent stage now 
it is being affected by Syria. We saw some peace in Lebanon 5 
years ago, 10 years ago, in spite of the fact that you didn't 
have one government in control equally of all the territory. 
You had different groups in control with their own militias. 
Sounds like a peaceable version of today's Syria. But one 
difference is, in Lebanon, whatever group lived in an area had 
control of the area. There was a certain fairness to their 
allocation of the territory.
    In Syria, the Alawites are 15 percent and have 
traditionally had the whole country and today hold a big, big 
chunk of it. Can there be, what should I say, less violent 
status in Syria, some sort of acceptance of a militia 
controlled status quo in different regions, or does the fact 
that the Alawites own over half the pie and ``deserve'' only 15 
percent mean that they have to keep fighting until it is over? 
Mr. Jenkins?
    Mr. Jenkins. First of all, in sorting things out in 
Lebanon, the civil war went on for 15 years. So if we get into 
two or three decades, different scenarios open up after people 
exhaust themselves. And second, the fighting in Lebanon, while 
it was intense, did not achieve the intensity that the fighting 
in Syria has, nor did it produce the kind of displacement in 
terms of refugees and so on. And so while it is possible, I 
think that we will see consolidation of these enclaves that 
could lead to some sort of a stasis, and there will continue to 
be pushing and shoving around the edges. But that may turn out 
to be, in the sense of a spectrum of poor outcomes, one of the 
least poor--that is, accepting the de facto partition of Syria 
into a kaleidoscope of enclaves and attempting to simply reduce 
both the internal violence and the potential spillover in terms 
of international terrorism that it would create.
    Mr. Poe. All right. I have another question. One last 
question. While this is taking place, all these countries that 
surround Lebanon, Jordan, Israel, are we going to see an influx 
into those countries of the groups that are in Syria whether 
they are on Assad's side or whether they are on the rebel side, 
are these militias going to move into these other countries?
    Mr. Smyth. I will speak for the Assad side. The Shia 
militia organizations are already based in Iraq. They already 
have political influence there. Lebanese Hezbollah is a very, 
very big player in Lebanon and essentially run the show in most 
cases.
    Mr. Poe. The Iranians want to take over the whole region.
    Mr. Smyth. Well, of course they do.
    Mr. Poe. And eliminate Israel in the process.
    Mr. Smyth. Well, that is one of the cores of their 
ideological structure.
    Mr. Poe. Okay. What about the other side? What about the 
folks fighting on the rebel side? Anybody want to weigh in on 
that? Mr. Barfi, I will let you answer that last question.
    Mr. Barfi. Let us just take a quick look at Jordan. We know 
hundreds of Jordanians have gone. Some get caught, some end up 
dead and some are still there. This is a Zarqawi network. These 
are the same Salafi leaders that piped people into Iraq. They 
are now coming back. Look at Lebanon. This is one of the 
biggest bombings we have seen in years in Lebanon of the 
Iranian Embassy. I mean, you are already seeing this blowback. 
And we know there is a lot of Salafis. We know there is 
jihadists in Lebanon. They were there before. But you are 
getting now the blowback, and what are they going to do? They 
are going to take the war to the infidel, Shia Hezbollah in 
there, and in Jordan they may try to destabilize the regime. It 
is very, very bad this blowback and spillover.
    Mr. Poe. I want to thank all of you. Your testimony was 
excellent. Your written statements were excellent. So without 
objection, all members will have 5 days to submit statements, 
and there may be more questions that we would like for you to 
answer in writing, and extraneous materials for the record 
subject to the limitation in the rules. Thank you once again.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


             Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
